TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Oversight and Administration of the
                       Tax Counseling for the Elderly Program
                                Need Improvement



                                              April 29, 2008

                                Reference Number: 2008-40-112




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 April 29, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Oversight and Administration of the Tax
                               Counseling for the Elderly Program Need Improvement
                               (Audit # 200740041)

 This report presents the results of our review to determine whether the Tax Counseling for the
 Elderly (TCE) Program is effectively administered and is in compliance with legal
 requirements.1 This audit was conducted as part of the Treasury Inspector General for Tax
 Administration Office of Audit Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 Over the last 3 calendar years, the Internal Revenue Service (IRS) Volunteer Program has
 assisted taxpayers with filing more than 6.5 million Federal income tax returns. The TCE
 Program prepared more than one-half of these returns. However, the TCE Program has not been
 effectively administered, and current management information and performance measures do not
 provide adequate oversight for the Program. This limits the IRS’ ability to assure that the
 Program is meeting the intent of the law and primarily serving elderly taxpayers.

 Synopsis
 The IRS Volunteer Program plays an increasingly important role in achieving the IRS’ goal of
 improving taxpayer service and facilitating participation in the tax system. The TCE Program
 plays a significant role in the Volunteer Program, preparing more than one-half of the tax returns

 1
   The TCE Program, which is part of the Internal Revenue Service Volunteer Program, provides free tax assistance
 to people age 60 and older (hereafter referred to as the elderly). The law authorizes an appropriation of special
 funds, in the form of a grant, to the TCE Program.
                     Oversight and Administration of the Tax Counseling for the
                                Elderly Program Need Improvement



prepared by volunteers. Nevertheless, based on the data provided and tested, we could not
determine if the 2006 TCE Program met the intent of the law or successfully directed its services
to the elderly population.
The TCE Program has not been effectively administered. The IRS does not have effective
controls or monitoring processes to ensure that funds are appropriately spent, and management
information is not sufficient to provide adequate oversight for the Program. Additionally, there
are insufficient performance measures to evaluate the success of the Program. Tests of the
58 Fiscal Year 2006 Program grantees showed:
•   The selection process needs to ensure that the most-qualified applicants are selected. Few
    guidelines and procedures exist on how to rate applicants, select grantees, and allocate grant
    funds. Not all applications were logged in, and no documentation existed to show that all
    applicants were considered. Additionally, the IRS conducted no demographic analysis of
    elderly taxpayers to weigh applicants’ geographic coverage, either individually by applicant
    or for the TCE Program as a whole. No specific criteria were used to select the grantees or to
    determine the amount of the award to grant each organization.
•   Better controls and more monitoring are needed to ensure that grantees are spending funds
    appropriately. The IRS does not verify the majority of expenses or conduct any analyses to
    identify whether expenses appear reasonable. No supporting documentation existed to verify
    how grantees spent their grant funds. In addition, the instructions in the IRS Publication and
    Form2 used to report how grant funds are spent are confusing and unclear as to what should
    be reported to the IRS.
•   Better management information is needed to help
    provide effective oversight and ensure that grantees             Limited TCE Program grant
                                                                    data are captured in a central
    are directing their services to the elderly and
                                                                      management information
    operating as intended. No centralized management                   system, which prevents
    information system captures and controls grantees’                  effective and efficient
    current year activities, including fund withdrawals,              monitoring and tracking.
    expenses reported, and tax preparation assistance.
Furthermore, performance measures and goals are needed to evaluate the success of the
TCE Program. Currently, the IRS measures only the number of tax returns prepared, the
percentage of returns prepared electronically, and the number of taxpayer contacts for its
Volunteer Program as a whole and has no measures specific to the TCE Program (i.e., no
measures to evaluate the individual grantees or the Program as a whole).



2
 Application Package and Guidelines for Managing a TCE Program (Publication 1101) and Tax Counseling for the
Elderly Program Quarterly/Final Report (Form 8654).
                                                                                                           2
                        Oversight and Administration of the Tax Counseling for the
                                   Elderly Program Need Improvement




Recommendations
We recommended that the Commissioner, Wage and Investment Division, 1) establish a process
and system of controls to ensure that the most-qualified applicants are selected for the TCE
Program, 2) establish a process and system of controls to ensure that grant funds are expended
appropriately and grantees are held accountable, 3) revise the IRS Publication and Form used to
report Program costs to clarify what is to be reported to the IRS, 4) develop a management
information system to oversee, control, and measure the Program’s activities and goals, and
5) establish performance measures to gauge the Program’s success in meeting its goals and
objectives, including directing services to elderly taxpayers.

Response
IRS management agreed with all of our recommendations. They have established scoring,
ranking, and selection criteria for grantees that include how the grant funds are allocated and
used historical performance data in scoring the Fiscal Year 2008 applicants. The IRS will
document all actions taken during the year of the grant within each organization’s case file and
continue to enhance this process by tracking and documenting steps taken during the grant and
award process. It will ensure that internal manuals are updated and accurately reflect these
processes and controls.
The IRS has established a process and system of controls to ensure that grant funds are expended
appropriately and that grantees are held accountable. During Fiscal Year 2007, financial reviews
of the TCE Program were instituted to examine policies, procedures, and controls. The IRS has
developed TCE Financial Review Guidelines and an onsite checklist for use during site reviews.
In October 2007, it hired three individuals to conduct such financial reviews on an ongoing,
annual basis. The IRS is using its Statistics of Income Office to select the Fiscal Year 2009 TCE
Grant Program recipients for reviews that will be conducted following the conclusion of the
2008 Filing Season.3
In Fiscal Year 2007, IRS management developed new processes to ensure that consideration was
given as to whether sponsoring organizations were in compliance with administrative program
requirements and allocation of funds. The IRS is in the process of revising Publication 1101 and
Form 8654 for use by 2009 TCE Program applicants.
IRS management agreed to the benefits of using a management information system to capture
and retain data to measure Program activities and effectiveness. They will explore use of a
database used by another IRS office that also administers grants.



3
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                   3
                       Oversight and Administration of the Tax Counseling for the
                                  Elderly Program Need Improvement



The IRS also agreed that performance measures are necessary to gauge the TCE Program’s
success in meeting its goals and objectives, including the goal of directing services to elderly
taxpayers. It has an existing measure, Volume of Taxpayers Served, which is representative
of the Program’s success. Other measures include Volunteer Return Preparation Program
Accuracy, Local Partner Satisfaction/Dissatisfaction, National Partner Satisfaction/
Dissatisfaction, and Taxpayer Contacts. Management will continue to use existing measures to
gauge performance and expand their focus on targeting the elderly population to enhance
Program success. Management’s complete response to the draft report is included as
Appendix VIII.

Office of Audit Comment
Although IRS management agreed that performance measures are necessary to gauge the
TCE Program’s success in meeting its goals and objectives, they stated that they have an existing
measure, Volume of Taxpayers Served, which is representative of the Program’s success.
However, the IRS does not have performance measures specific to the TCE Program. For
example, it does not measure and report whether the Program is meeting the goal of serving the
elderly population.
The IRS did not agree with the potential outcome measure of $3.9 million, which represents the
amount of grant funds drawn from the Fiscal Year 2006 TCE Program. The IRS stated that it
has begun implementing several corrective actions to strengthen its financial oversight of the
grant program and will continue to work with the United States Department of Health and
Human Services to resolve account closings and over-advanced amounts.4
Nevertheless, our test results showed that the IRS does not verify the majority of expenses and
does not conduct any analyses to identify whether expenses appear reasonable. We could not
determine if any funds had been spent inappropriately because there were no expense receipts to
compare to reported expenses or any documentation to show whether expenses had been verified
or analyzed for reasonableness. Therefore, based on the data provided and tested, we could not
determine if the 2006 TCE Program met the intent of the law or successfully directed its services
to elderly taxpayers.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




4
    Grant funds are maintained and distributed through the Health and Human Services Payment Management System.
                                                                                                              4
                          Oversight and Administration of the Tax Counseling for the
                                     Elderly Program Need Improvement




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Improvements Are Needed to Ensure That the Most-Qualified
          Applicants Are Selected and Funds Are Spent Appropriately......................Page 4
                    Recommendations 1 and 2: ..............................................Page 10

                    Recommendation 3 ................................................................... Page 11

          Better Management Information Is Needed to Help Provide
          Effective Oversight .......................................................................................Page 11
                    Recommendation 4:........................................................Page 14

          Performance Measures and Goals Are Needed to Evaluate the
          Success of the Tax Counseling for the Elderly Program ..............................Page 14
                    Recommendation 5:........................................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Outcome Measure ................................................................Page 21
          Appendix V – Tax Counseling for the Elderly Program
          Quarterly/Final Report (Form 8654).............................................................Page 22
          Appendix VI – Geographic Analysis of Fiscal Year 2006 Tax
          Counseling for the Elderly Program Grantees ..............................................Page 24
          Appendix VII – Fiscal Year 2006 Tax Counseling for the Elderly
          Program Grant Amounts and Tax Return Preparation Activity....................Page 26
          Appendix VIII – Management’s Response to the Draft Report ...................Page 28
        Oversight and Administration of the Tax Counseling for the
                   Elderly Program Need Improvement




                     Abbreviations

AARP           American Association of Retired Persons
IRS            Internal Revenue Service
SPEC           Stakeholder Partnerships, Education, and Communication
TCE            Tax Counseling for the Elderly
VITA           Volunteer Income Tax Assistance
STARS          SPEC Taxpayer Assistance Reporting System
                      Oversight and Administration of the Tax Counseling for the
                                 Elderly Program Need Improvement




                                            Background

The Internal Revenue Service (IRS) Volunteer Program plays an increasingly important role in
achieving the IRS’ goal of improving taxpayer service and facilitating participation in the tax
system. The Volunteer Program includes the Volunteer Income Tax Assistance (VITA) and Tax
Counseling for the Elderly (TCE) Programs. The VITA Program offers free tax help for low- to
moderate-income (about $39,000 and below) individuals. The TCE Program provides free tax
help to people age 60 and older (hereafter referred to as the elderly).
Over the last 3 calendar years, the Volunteer Program has assisted taxpayers with filing more
than 6.5 million Federal income tax returns. The TCE Program prepared more than one-half of
these returns. Figure 1 provides a breakdown of the volume of tax returns prepared by the
Volunteer Program during January through September 2007.
                 Figure 1: Tax Returns Prepared by the Volunteer Program
                                (January - September 2007)

                                                                 Number of Tax
                         Volunteer Program                      Returns Prepared          Percentage
         VITA and Colocated VITA*                                     846,450                 34%
         Military VITA                                                272,666                 11%
         TCE (Non-AARP**)                                              51,203                   2%
         TCE (AARP)                                                1,293,202                  52%
         Other                                                         23,484                   1%
         Totals:                                                   2,487,005                 100%
       Source: Our analysis of data retrieved from the IRS management information system.
       *Colocated VITA = VITA site located in close proximity to a Taxpayer Assistance Center.1
       **AARP = American Association of Retired Persons.

The Revenue Act of 19782 authorized the TCE Program. The IRS can enter into agreements
with private or nongovernmental, public, nonprofit agencies and organizations to provide
training and technical assistance to volunteers who provide free tax counseling and assistance to
elderly individuals in the preparation of their Federal income tax returns. The law authorizes
appropriation of special funds, in the form of grants, to provide tax assistance to the elderly.


1
  These are IRS offices with employees who answer questions, provide assistance, and resolve account-related issues
for taxpayers face to face.
2
  Pub. L. No. 95-600, 92 Stat. 2810.
                                                                                                           Page 1
                        Oversight and Administration of the Tax Counseling for the
                                   Elderly Program Need Improvement



Treasury Regulations3 state that all tax preparation provided under this Program must be free of
charge and must be provided only to elderly individuals. The IRS receives the funds as a line
item in the budget appropriation.
In 1980, the IRS established the first cooperative agreement in the TCE Program, awarding the
American Association of Retired Persons (AARP) a grant of all available funds to operate
Tax-Aide/TCE Program sites. In Fiscal Year 1992, 57 grantees were accepted into the Program,
                                                      and the number of applicants awarded grants
                                                      has remained consistent.
    An organization interested in becoming a
    TCE Program grantee must meet the following                The TCE Program appropriation was
    eligibility criteria prior to submitting an                $3.95 million for each of Fiscal Years 2005
    application to the IRS. A grantee:
                                                               through 2007. Although other organizations
    1. Must be a private or public, nonprofit                  have been awarded TCE Program grants
        organization that qualifies for exemption              since 1980, the AARP receives
        status under Section 501 (c) of the Internal           approximately 85 percent of the Program’s
        Revenue Code of 1986.
                                                               grant funds. Grants awarded in Fiscal
    2. Must have experience in coordinating                    Year 2006 ranged from $1,348 to $46,000
        volunteer programs.                                    for non-AARP grantees. The grant awarded
    3. Must operate programs that serve and assist             to the AARP was $3,435,658.4
        elderly individuals.                                   Eligible agencies and organizations compete
    4. Cannot be a Federal, State, or local                    annually for TCE Program grants in
        governmental agency or organization.                   compliance with the Federal Grant and
                                                               Cooperative Agreement Act of 1977.5
    5. Must be compliant with “Common Rule
        Certifications” contained in the Application
                                                               Applicants apply using Application Package
        Package and Guidelines for Managing a TCE              and Guidelines for Managing a TCE
        Program (Publication 1101).                            Program (Publication 1101).
    6. Must be compliant with applicable civil rights  IRS guidelines are specific as to how funds
        requirements.                                  may be spent. Volunteers may be
  Source: IRS internal guidelines.                     reimbursed for costs associated with
                                                       assisting taxpayers. Grant funds are used to
                                                       reimburse volunteers for out-of-pocket costs
including transportation, meals, and other expenses incurred by them in providing tax counseling
assistance at locations convenient to taxpayers. In addition to volunteers’ out-of-pocket costs,
funds may be used by the grantee organization for administrative expenses. These include
1) salaries, wages, and benefits of clerical personnel, 2) office supplies and equipment with a unit
cost of less than $15, 3) printing and postage costs, 4) installation of telephone lines necessary to

3
  Treas. Reg. Section 601.803(c) (1979).
4
  See Appendix VII for a list of grantee amounts awarded for Fiscal Year 2006.
5
  Pub. L. No. 95-224, 92 Stat. 3, February 3, 1978, codified at 31 U.S.C. Chapter 63.
                                                                                                    Page 2
                       Oversight and Administration of the Tax Counseling for the
                                  Elderly Program Need Improvement



service a telephone answering site, 5) rent, utilities, and custodial services when necessary, and
6) costs for interpreter services. IRS guidelines state that only 30 percent of grant funds awarded
can be used for administrative expenses.
Grant funds are maintained and distributed through the United States Department of Health and
Human Services Payment Management
System. The IRS enters the grantees and their          After being awarded the grants,
award amounts into this System. Grantees            TCE Program grantees are allowed to
draw funds directly from it via direct deposit.       draw an advance payment of up to
They are allowed to draw an advance payment            one-half of the amount awarded.
of up to one-half of the grant amount awarded.
After the initial advance payment, grantees must incur Program expenses before submitting
requests for reimbursement. Expenses are reported to the IRS on the Tax Counseling for the
Elderly Program Quarterly/Final Report (Form 8654),6 which grantees are required to submit to
the IRS within 30 business days following the end of each quarter. Final reports are due to the
IRS within 3 months of the end of the Program or no later than December 31.
The Wage and Investment Division Stakeholder Partnerships, Education, and Communications
                               (SPEC) function is responsible for the IRS Volunteer Program.
                               The objective of the TCE Program is to provide free assistance to
                               elderly taxpayers in the preparation of Federal income tax returns
                               by providing training, technical, and administrative support to
volunteers under the direction of nonprofit agencies and organizations that have cooperative
agreements with the IRS.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, in the SPEC function and at the Oversight and Analysis Staff function in
Lanham, Maryland, during the period July through December 2007. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




6
 See Appendix V. Form 8654 reports, for example, administrative expenses, total costs, and funds advanced, in
addition to actual tax preparation activity such as the number of individual Federal tax returns prepared and filed on
paper and electronically and the number of taxpayers assisted (excluding tax return preparation) for the elderly and
others.
                                                                                                              Page 3
                      Oversight and Administration of the Tax Counseling for the
                                 Elderly Program Need Improvement




                                     Results of Review

 Improvements Are Needed to Ensure That the Most-Qualified
 Applicants Are Selected and Funds Are Spent Appropriately
 The TCE Program accounts for more than one-half of the tax returns prepared in the IRS
 Volunteer Program. Nevertheless, only about 62 percent of the Calendar Years 2006 and 2007
 tax returns prepared by the TCE Program grantees were prepared for elderly taxpayers. Figure 2
 presents a breakdown of tax returns prepared by the TCE Program for this period.
                    Figure 2: Tax Returns Prepared by the TCE Program
                              for Calendar Years 2006 and 2007

                                                Calendar Year 2006                  Calendar Year 2007
       Tax Returns Prepared                Non-AARP              AARP             Non-AARP          AARP

 Paper Tax Returns Prepared                    8,523             236,068           12,590          239,519

 Electronic Tax Returns Prepared             31,439              831,802           38,613         1,053,683

 Total Tax Returns Prepared                  39,962            1,067,870           51,203         1,293,202
 Tax Returns Prepared for Elderly
                                             17,691              664,200           25,570          846,764
 Taxpayers
 Percentage of Tax Returns
                                               44%                 62%               50%             65%
 Prepared for Elderly Taxpayers
 Percentage of Tax Returns
                                                        62%                                 65%
 Prepared for Elderly Taxpayers
Source: Our analysis of data retrieved from IRS management information systems.

 Based on the data provided and tested, we could not determine if the most-qualified applicants
 were accepted into the TCE Program or if the funds were spent appropriately. The Program has
 not been effectively administered. The IRS does not have an effective process or sufficient
 internal controls to ensure that the most-qualified applicants were selected. It also was not
 effectively monitoring the grantees to ensure that the funds were appropriately spent.
 An integral component of every organization’s management should be a system of internal
 controls that provides reasonable assurance of the effectiveness and efficiency of operations, the
 reliability of financial reporting, and compliance with applicable laws and regulations. Internal
 controls should provide reasonable assurance that the objectives of the TCE Program are being
 met and that grantees are using funds according to the law and IRS regulations.
                                                                                                        Page 4
                      Oversight and Administration of the Tax Counseling for the
                                 Elderly Program Need Improvement



The selection process needs to ensure that the most qualified applicants are
selected
IRS Publication 1101 instructs applicants on what they must do to submit an application
package, including program and administrative requirements, instructions on how to apply, and
an explanation of what happens after acceptance into the
TCE Program. It also defines allowable and unallowable           IRS guidelines state:
expenses and explains how to manage funds, submit reports,
                                                                 1. Members of the TCE
and close out the grants.                                            Program Panel Review
                                                                                    from the SPEC function
Conversely, internal guidelines provide only an overview of
                                                                                    field offices meet to
the application and selection process. They include few                             review/rank all applications.
instructions and procedures on how SPEC function staff
should rate applicants, select grantees, and allocate grant                    2. Panel Review members are
                                                                                  provided with the evaluative
funds.                                                                            criteria with which the
A review of case files for the 58 Fiscal Year 2006 grantees                       applications will be ranked
                                                                                  and will base
showed that the grantees met all eligibility requirements. In                     recommended grant
addition, the grantees submitted required narratives and                          amounts for each
proposed program plans7 during the application process.                           organization on these
However, we could not determine from the case files and                           criteria and the applicant’s
other available records how many and what organizations                           proposal.
applied for Fiscal Year 2006 grants and how the grantees were                  3. Checklists are provided to
selected and awarded. Also, case files contained little support                   ensure that all applications
to show that the IRS selected applicants based on their                           are complete and contain
technical evaluation score, the geographic location of the site,                  required information and
                                                                                  certification documents.
and the number of taxpayers who would be served.
Specifically:                                                                 Source: IRS internal guidelines.

•   Not all applications were logged in, and no documentation existed to show that all applicants
    were considered. Lists of applicants and grantees did not agree with paper case files. A list
    of applicants contained 65 organizations; a list of grantees contained 60 organizations, but
    there were 79 applicant case files. Because of the discrepancy between the lists and the
    paper files, we could not determine if all application packages were considered.
•   The Panel Review was not provided with established criteria or written guidelines to score
    the individual elements in each application package. The selection checklist included
    five categories with multiple subcategories to be scored (weighted) and considered by the
    Panel Review. However, no guidance was provided on how to score the subcategories.


7
  A program plan provides a narrative on what the applicant has done in the past or existing programs and should
include the overall plans to ensure compliance with laws and regulations, method to recruit and train volunteers,
funds needed, type of program and site publicity, and plan for electronic filing services.
                                                                                                            Page 5
                   Oversight and Administration of the Tax Counseling for the
                              Elderly Program Need Improvement



•   The SPEC function did not conduct 1) any demographic analyses of elderly taxpayers (either
    individually by applicant or for the TCE Program as a whole) to weigh applicants’
    geographic coverage or 2) any independent
    analyses of demographics to determine which       Comparison of the number of Fiscal
    areas of the country have high populations of     Year 2006 TCE Program sites to the
    elderly taxpayers that would benefit the most   elderly population by State showed that
    from the TCE Program during the application       Kansas, Missouri, Maine, Minnesota,
                                                            Oregon, and Vermont had
    process. Of the 50 States and the District of        proportionately more sites and
    Columbia, 12 States (24 percent) had a               Arkansas, Colorado, Delaware,
    significantly disproportionate number of            Mississippi, South Carolina, and
    Fiscal Year 2006 TCE Program sites based           Virginia had proportionately fewer.
    on their elderly populations. Appendix VI
    presents an analysis of the demographics for
    the Fiscal Year 2006 TCE Program grantees.
•   No specific criteria were used to select the grantees or to determine the amount of the award
    to grant each organization. Although each applicant’s package was individually scored, the
    case files included no support to show why each grantee was selected (e.g., based on
    individual scores and a numerical ranking or to achieve appropriate geographic coverage).
    The IRS explained that officials met, discussed the applicants and application packages,
    selected the grantees, and judgmentally allocated award amounts. The officials did not
    document the rationale for the decisions made. Additionally, there was no independent
    review or validation of the applications, Panel rankings, or grant awards.
The IRS needs to have controls in place to enhance the integrity of the evaluation and selection
process. Without logging in each application when received, it has no assurance that all
applicants are considered and treated fairly during the evaluation and selection process. There
were no established criteria or written guidelines for selecting grantees and assigning
grant/award amounts. Without specific criteria, consistent procedures, and internal controls, the
IRS has no assurance that the best applicants were selected for the Program and the funds were
appropriately allocated.
The IRS stated that it has begun to take the following corrective actions: 1) requiring that all
actions taken on applicants and grantees be documented in the grantee case files, 2) adding
evaluative criteria to rank the applications and weighted scoring for serving elderly taxpayers,
3) holding an orientation meeting for the Panel Review and conducting a secondary review of the
Panel Review scoring, and 4) including in the application package an analysis of an applicant’s
prior years’ data on the number of tax returns prepared for elderly taxpayers and information on
its adherence to grant guidelines (e.g., if the grantee submitted forms in a timely manner or had
administrative expenses of more than 30 percent).



                                                                                           Page 6
                   Oversight and Administration of the Tax Counseling for the
                              Elderly Program Need Improvement



Better controls and more monitoring are needed to ensure that grantees are
spending funds appropriately
Internal guidelines and Publication 1101 provide general instructions on how the grantees should
                                         manage and account for grant funds. Expenses are
  Allowable expenses include:            allowable only for costs that would not have been incurred
  Reimbursements to volunteers,          except for the Program. However, oversight is limited,
  publicity, and training costs directly and few controls exist to ensure that the funds are spent
  and totally associated with the
                                         according to guidelines.
 Program.
 Salaries, wages, and benefits of      An analysis of the 58 Fiscal Year 2006 TCE Program
 clerical personnel.                   grantee case files showed that the IRS does not verify the
 Office supplies and equipment with    majority of expenses and does not conduct any analyses to
 a unit cost of less than $15.
                                       identify whether expenses appear reasonable. We could
 Rent, utilities, and custodial
 services when additional and          not determine if any funds had been spent inappropriately
 necessary.                            because there were no expense receipts to compare to
 Miscellaneous services, such as       reported expenses or any documentation to show whether
 printing, postage, insurance, etc.    expenses had been verified or analyzed for reasonableness.
 Installation of telephone lines
 necessary to service a telephone      •     Case files contained no supporting documentation to
 answering site and/or a telephone           verify how grantees spent their grant funds.
 line to support electronic filing.          Form 8654 categorizes and reports expenses.
Source: IRS internal guidelines.
                                             However, the case files we reviewed contained no
                                             records or receipts supporting the expenses.
    Guidelines do not require that grantees submit receipts for certain expenses. However,
    receipts are required for travel-related expenses for orientation meetings. Nonetheless, only
    two of the eight grantees claiming orientation meeting expenses submitted receipts or
    supporting documentation.
•   Some grantees spent more than the allowed percentage of grant funds for administrative
    expenses. Publication 1101 instructs grantees that no more than 30 percent of the total grant
    funds awarded may be expended for administrative expenses. An analysis of the 58 grantees
    showed 9 (16 percent) reported spending more than 30 percent (or $44,111) of the allowable
    funds on administrative expenses. None of the nine case files contained documentation
    showing any actions were taken to recover these funds. Six of the nine grantees were
    awarded Fiscal Year 2007 grants, including the four with the highest percentages of
    administrative expenses.
•   Grantees reported total costs rather than only TCE Program costs on the Forms 8654, making
    it difficult to determine how the grantees used the Program funds and if the funds were used
    appropriately. Grantees may have operating funds other than TCE Program grant funds,
    including private donations or other Government grants. Form 8654 is to be used to report
    how TCE Program grant funds are spent. However, Publication 1101 is confusing and

                                                                                            Page 7
                     Oversight and Administration of the Tax Counseling for the
                                Elderly Program Need Improvement



•    Grant accounts were not reconciled and closed in a timely manner because either the filing of
     the final reports by the grantees or the updating of the Payment Management System was not
     done on time. Fifteen (26 percent) of the 58 Fiscal Year 2006 grant accounts had not been
     closed on the Payment Management System as of November 2007. Ten (67 percent) of these
     15 grantees were also awarded Fiscal Year 2007 grants. When grantee accounts are not
     closed out, costs the IRS incurs to maintain the accounts on the Payment Management
     System continue to accrue. As of November 2007, the 58 grantees had drawn $3,914,625 in
     grant funds from the Fiscal Year 2006 TCE Program.9
If grantees spend more than $500,000 a year in total Federal Government awards, they are
required to arrange for an audit by an independent auditor, in accordance with the Government
Auditing Standards developed by the Comptroller
General of the United States,10 and to provide a
copy of the audit report to the IRS. If the grantee      If grantees spend more than $500,000 a
does not meet the requirement, the IRS still has the    year  in total Federal Government awards,
authority to audit expenditures of TCE Program          they  are required to arrange for an audit–
                                                             23 of the 58 Fiscal Year 2006 TCE
funds, regardless of the dollar amount of Federal        Program grantees met this requirement.
Government funding received by the grantee.
Twenty-three of the 58 Fiscal Year 2006 grantees
met this requirement. However, only 4 case files contained the required copies of the audit
results. The other 19 files contained no support that the audits had been completed.
In October 2006, the SPEC function instituted financial reviews for the TCE Program. It
collaborated with another IRS office to conduct 10 reviews. The reviewer was to look at receipts
and expenditures. However, only six reviews were completed, with the results of only two being
reported to the function. Additionally, IRS officials stated that SPEC function Headquarters
personnel reviewed reports monthly to analyze expenditures drawn from the Payment
Management System. No support for these reviews was provided to us.
The IRS advised us that in October 2007, the SPEC function hired three individuals to conduct
annual financial reviews, including visitations. The results of the reviews will be maintained in
the grantee case files, along with recommendations and corrective actions. If corrective actions
are not taken, the IRS will determine the appropriate sanction, including requiring the grantee to
return grant funds and removing the grantee from the TCE Program.
Financial reviews should be an integral part of controls in a grant program. The IRS should
establish controls to track forms and analyze the financial information on Forms 8654 to help
identify potential issues. This would assist the IRS in determining which sites to visit to ensure

9
  See Appendix IV.
10
   Audit requirements applicable to grant recipients are described in Office of Management and Budget
Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, 62 FR 35278-35302
(June 30, 1997).
                                                                                                        Page 9
                   Oversight and Administration of the Tax Counseling for the
                              Elderly Program Need Improvement



that the information provided in the reports is accurate or which expenses to verify. Without an
effective monitoring process, the IRS has no assurance that grant funds are being used
appropriately and that recipients are complying with the terms and conditions of the grant.
The IRS has already begun corrective actions. For example, the SPEC function has improved
the ranking criteria to ensure equitable ranking among the Panel Review members and among all
organizations. It hired three financial reviewers in October 2007 to conduct financial reviews
and visitations to determine if expenses are reasonable. Additionally, the SPEC function has
instituted, as part of the award process, an annual conference call with field offices to discuss
TCE Program expectations for the upcoming year and the actions that need to be accomplished.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Establish a process and system of controls to ensure that the most-
qualified applicants are selected for the TCE Program. The process and system of controls
should 1) track applicants through application/award; 2) establish scoring, ranking, and selection
criteria for grantees, including how the grant funds are to be allocated; 3) use historical
performance data, when applicable, as a criterion during the selection process; and 4) document
steps taken during the grant/award process. Internal manuals should be updated to reflect the
process and controls.
       Management’s Response: IRS management agreed with this recommendation.
       They have established scoring, ranking, and selection criteria for grantees that include
       how the grant funds are allocated, and they used historical performance data in scoring
       the 2008 applicants. The SPEC function Grant Program Office will document all actions
       taken during the year of the grant within each organization’s case file using a history
       sheet that tracks applicants through the application and award process. Management will
       continue to enhance this process by tracking and documenting steps taken during the
       grant and award process. They will ensure that internal manuals are updated and
       accurately reflect these processes and controls.
Recommendation 2: Establish a process and system of controls to ensure that grant funds are
expended appropriately and grantees are held accountable.
       Management’s Response: IRS management agreed with this recommendation.
       They have established a process and system of controls to ensure that grant funds are
       expended appropriately and that grantees are held accountable. During Fiscal Year 2007,
       financial reviews of the TCE Program were instituted to examine policies, procedures,
       and controls. Management has developed TCE Financial Review Guidelines and an
       onsite checklist for use during site reviews. In October 2007, the SPEC function hired
       three individuals to conduct such financial reviews on an ongoing, annual basis. The
       SPEC function is using the IRS Statistics of Income Office to select the Fiscal Year 2009
                                                                                          Page 10
                         Oversight and Administration of the Tax Counseling for the
                                    Elderly Program Need Improvement



           TCE Grant Program recipients for reviews that will be conducted following the
           conclusion of the 2008 Filing Season.11
           Office of Audit Comment: The IRS did not agree with the potential outcome measure
           of $3.9 million, which represents the amount of grant funds drawn from the Fiscal
           Year 2006 TCE Program. The IRS stated that it has begun implementing several
           corrective actions to strengthen its financial oversight of the grant program and will
           continue to work with the Department of Health and Human Services to resolve account
           closings and over-advanced amounts.
           Nevertheless, our test results showed that the IRS does not verify the majority of
           expenses and does not conduct any analyses to identify whether expenses appear
           reasonable. We could not determine if any funds had been spent inappropriately because
           there were no expense receipts to compare to reported expenses or any documentation to
           show whether expenses had been verified or analyzed for reasonableness. Therefore,
           based on the data provided and tested, we could not determine if the 2006 TCE Program
           met the intent of the law or successfully directed its services to elderly taxpayers.
Recommendation 3: Revise Publication 1101 and Form 8654 to make it clear that
Form 8654 is to be used to report those expenses paid for or allocated to TCE Program grants.
           Management’s Response: IRS management agreed with this recommendation. In
           2007, they developed new processes to ensure that consideration was given as to whether
           sponsoring organizations were in compliance with administrative program requirements
           and allocation of funds. The SPEC function TCE Grant Program Office is in the process
           of revising Publication 1101 and Form 8654 for use by 2009 TCE Program applicants.

Better Management Information Is Needed to Help Provide Effective
Oversight
Guidelines require that specific information be gathered from TCE Program grantees using
various SPEC function reports and Forms 8654. Although information is to be gathered from the
Forms 8654, no central management information system captures these data. In addition, the
current management information system used to capture Volunteer Program activities is not
always accurate and does not provide historical data.
Based on the data provided and tested, we could not determine if the 2006 TCE Program
successfully directed its services to the elderly population. The IRS does not have an effective
process or sufficient management information to ensure that the Program is operating effectively,
efficiently, or as intended by the law or regulations. Management information is essential to



11
     The period from January through mid-April when most individual income tax returns are filed.
                                                                                                    Page 11
                   Oversight and Administration of the Tax Counseling for the
                              Elderly Program Need Improvement



control operations and make decisions and should be an integral component of a system of
internal controls.

No system tracks the expectations and performance of TCE Program grantees
No centralized IRS management information system
captures and controls grantees’ current year activities,       Limited TCE Program grant
including fund withdrawals, expenses reported, and tax        data are captured in a central
preparation assistance. This information is essential to        management information
compare grantee and IRS expectations to                          system, which prevents
                                                                  effective and efficient
accomplishments.
                                                                monitoring and tracking.
The SPEC function maintains data for the Volunteer
Program in the SPEC Taxpayer Assistance Reporting
System (STARS), which includes the profiles and contact information for Program participants
and site information. It also captures the number of taxpayer contacts for outreach activities,
along with information about the activity conducted and the number of volunteers at each site,
and controls the computers and software used to prepare the tax returns. The STARS was not
designed to capture those data unique to the TCE Program (e.g., award amounts, expectations,
funds distributions, expenses, or the number of tax returns prepared for elderly taxpayers). Thus,
the IRS must use manual processes to monitor and oversee the Program, which is time
consuming and ineffective.

The STARS has inaccurate data and does not provide historical data
IRS guidelines require that all Volunteer Program tax preparation sites be listed on the STARS.
However, the STARS data are limited and not always accurate. In addition, the System does not
maintain historical data and is only a snapshot of current operations. Historical data must be
separately captured, extracted, and stored.
The STARS tracks Volunteer Program organizations and their tax return preparation activity by
Site Identification Number and STARS Program Code. Each Volunteer Program site is to be
assigned a unique Site Identification Number, which identifies the original Program type (VITA,
Military, AARP, and TCE Program) and the physical location of the site. TCE Program grantees
are instructed to enter the Site Identification Number on all tax returns prepared to ensure that
each site receives credit for the tax returns prepared at the site.
However, tests of Fiscal Year 2006 grantees identified inconsistencies. When auditors asked for
a list of TCE Program sites for Fiscal Years 2006 and 2007, they were provided with three
different lists. Figure 4 shows how the number of sites varied, depending on how the sites were
input to the STARS and how the data were queried.




                                                                                          Page 12
                        Oversight and Administration of the Tax Counseling for the
                                   Elderly Program Need Improvement



          Figure 4: Number of TCE Program Sites in Fiscal Years 2006 and 2007

                        September 2007                      October 2007                   November 2007
       TCE
     Program       Fiscal Year      Fiscal Year     Fiscal Year       Fiscal Year     Fiscal Year     Fiscal Year
       Site           2006             2007            2006              2007            2006            2007

 AARP                     7,190           7,140            7,209             6,749           7,474              7,150
 Non-AARP                   502             308              253               281             348                298
 Total Sites              7,692           7,448            7,462             7,030           7,822              7,448
Source: Forms 8654 and the STARS.12

An analysis of the data in Figure 4 showed the following discrepancies:
•      18 (32 percent) of the 57 non-AARP grantees had Site Identification Numbers that identified
       them as VITA Program sites. This affected 65 non-AARP TCE Program sites and 6 AARP
       TCE Program sites. When Volunteer Program organizations change Programs, they are not
       required to change their Site Identification Numbers. The IRS advised us it is too difficult to
       have the volunteer organizations do this.
•      26 (46 percent) of the 57 non-AARP grantees had sites that did not have unique Site
       Identification Numbers.
The SPEC function reports total volunteer assistance and does not report by Program type.
SPEC function analysts stated that they can obtain data on the TCE Program using a STARS
Program Code. However, when we attempted to do this, we identified 51 sites with incorrect
Program Codes.
The STARS has been unable to track sites by grantee/organization. Therefore, determining
activity by grantee has not been possible. Not all Fiscal Year 2006 sites listed in Appendix VI
were associated with the grantees, requiring that Individual Site Identification Numbers be
queried and then manually totaled.
The SPEC function is aware of these problems and is planning corrective actions. It plans to
issue letters to its field offices requiring them to ensure that data entered in the STARS are
accurate, including Program Codes and Site Identification Numbers. The field offices are also to
ensure that the grantees and all their sites are linked within the STARS.
Finally, the STARS does not maintain historical information. Therefore, the IRS does not have
records with which to gauge the progress of the TCE Program or the historical performance of
the grantees. For example, the System cannot be queried to determine which grantees



12
     Data were extracted from static files that had been downloaded from the STARS and separately maintained.
                                                                                                          Page 13
                        Oversight and Administration of the Tax Counseling for the
                                   Elderly Program Need Improvement



participated in a prior year and how many tax returns they prepared. This can be accomplished
only if data have been extracted and maintained outside the System.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should develop a
management information system to oversee, control, and measure the TCE Program’s activities
and goals. The system should capture grantees’ historical and current year information and
include information about the grantee such as 1) the number of sites and geographic dispersion;
2) grantee awards requested, made, and spent; 3) grant funds distributed and returned; 4) grantee
expectations and planned activity; 5) grantee expenses related to the Program; and 6) actual tax
returns prepared by the grantee for all taxpayers and elderly taxpayers.
           Management’s Response: IRS management agreed with this recommendation.
           They agreed to the benefits of using a management information system to capture and
           retain data to measure TCE Program activities and effectiveness. However, they will not
           be developing a new management information system because of the President’s E-Gov
           Initiatives (M-04-08), which were created to avoid duplication of information systems.
           They will explore use of a database used by the Low Income Tax Clinic Office for
           administering its grants, as well as other existing databases, for comparative analysis of
           capabilities and adaptation to fit the TCE Program needs.

Performance Measures and Goals Are Needed to Evaluate the
Success of the Tax Counseling for the Elderly Program
                                                    The Government Performance and Results Act of
      Performance measures reported                 199313 states that agencies should establish general
      by the SPEC function for its                  goals and objectives, including those that are
      Volunteer Program:
       Percentage of Individual Returns
                                                    outcome-related, for the major functions and
       Prepared Electronically                      operations of the agency. Neither the SPEC
       Number of Taxpayer Contacts                  function’s $69 million budget (which includes the
       Number of Tax Returns Prepared               Volunteer Program) nor the TCE Program’s almost
     Source: Wage and Investment Division           $4 million in grant funds is significant to the IRS’
     Strategy and Program Plan Fiscal               more than $10 billion budget. Nevertheless, the
     Year 2008 – Fiscal Year 2009.                  Volunteer Program plays an increasingly important
                                                    role in achieving the IRS’ goal of improving
                                                    taxpayer service and facilitating participation in the



13
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 14
                      Oversight and Administration of the Tax Counseling for the
                                 Elderly Program Need Improvement



tax system. Additionally, the TCE Program is a Federal Government grant program and is
currently a significant contributor to the Volunteer Program.
Regulations require grant funds to be used for tax return preparation only for elderly individuals.
IRS guidelines state that, “All tax return preparation assistance provided under the TCE Program
must be provided free of charge to taxpayers and must target the elderly population. The
Program must be designed and operated to provide assistance to such individuals.”
Because the IRS had insufficient data and management information, we could not determine if
the TCE Program had directed its resources and services to the elderly population and if the
current level of tax preparation for the elderly represents success. Additionally, a lack of
historical data on the TCE Program, including performance measures specific to it, prevented us
from determining if the Program needs improvement or is improving.
Furthermore, the IRS does not evaluate the effectiveness of the individual grantees in meeting
expectations, in successfully serving elderly taxpayers, or on the return on investment or average
cost of tax returns prepared (i.e., the number of tax returns prepared with the grant funds
awarded). Our analyses showed:
•    Although approximately 62 percent of the tax returns prepared by the TCE Program
     were prepared for elderly taxpayers in Calendar Year 2006, only 27 (47 percent) of the
     58 TCE Program grantees prepared the majority of their tax returns for elderly taxpayers in
     Fiscal Year 2006. Appendix VII presents a list of awards and the numbers and percentages
     of tax returns prepared for elderly taxpayers with the award funds.
•    The average cost per tax return prepared, according to IRS records, was approximately $3.57,
     with a range of $1 to $3,200.14 Using the number of tax returns the grantees reported
     preparing on Forms 8654, the average cost per tax return was approximately $3.13, with a
     range of $1 to $341. Appendix VII presents a list of each grantee’s average cost per tax
     return.
During Fiscal Year 2006, the IRS used $10 to evaluate
each applicant’s expected cost per tax return prepared.                       The IRS should analyze
IRS officials advised us that, for Fiscal Year 2008, they                   TCE Program information at
have increased this to $16 to better reflect current costs.                the end of each fiscal year to
They stated that this estimate is to be used to determine a                    assess each grantee’s
                                                                            accomplishments as well as
reasonable amount of TCE Program grant funds, based on                       those of the Program as a
the applicant’s projected tax return preparation.                                      whole.
However, this type of information must be closely
analyzed to evaluate the applicants’ projected activities and to determine if they met


14
  For one grantee, we used total cost for one return as $3,200 because IRS records showed no returns were filed by
this grantee.
                                                                                                          Page 15
                   Oversight and Administration of the Tax Counseling for the
                              Elderly Program Need Improvement



expectations. The IRS should analyze all information from Form 8654, along with data from the
grantee’s various computer systems, at the end of each fiscal year to assess each grantee’s
accomplishments as well as those of the TCE Program as a whole. These analyses are essential
in determining if each grantee and the TCE Program are meeting the Program’s goals and
objectives.
In Fiscal Years 2005 to 2007, the IRS increased volunteer tax return preparation from 1.9 million
to 2.5 million tax returns and improved the accuracy rate of tax returns prepared by its volunteers
from 0 percent to 56 percent. It plans to continue expanding and improving the Volunteer
Program. When asked their plans and expectations for the TCE Program, IRS officials stated
that they would be contacting the Taxpayer Services Program Management Office to determine
how the VITA and TCE Programs fit into the IRS Taxpayer Assistance Blueprint, which is the
IRS’ strategic plan for the future of service delivery. It presents portfolios of service
improvements, performance measures, and additional research projects to provide a foundation
for the future of service at the IRS.
Without TCE Program historical data and performance measures, the IRS cannot readily
determine how the Program fits into its overall taxpayer service strategy, whether it is effectively
directing services to the elderly population, and whether it is cost effective. The IRS needs to
develop management information systems and performance measures to determine if the
TCE Program is meeting the intent of the law and primarily serving the elderly.

Recommendation
Recommendation 5: The Commissioner, Wage and Investment Division, should establish
performance measures to gauge the TCE Program’s success in meeting its goals and objectives,
including directing services to elderly taxpayers.
       Management’s Response: IRS management agreed with this recommendation,
       stating that they have an existing measure, Volume of Taxpayers Served, which is
       representative of the TCE Program’s success. A variety of other measures is outlined in
       the 2008 SPEC Business Plan and the Wage and Investment Strategy and Program Plan.
       These measures include Volunteer Return Preparation Program Accuracy, Local Partner
       Satisfaction/Dissatisfaction, National Partner Satisfaction/Dissatisfaction, and Taxpayer
       Contacts. Management will continue to use existing measures to gauge performance and
       expand their focus on targeting the elderly population to enhance Program success.
       Office of Audit Comment: Although IRS management agreed that performance
       measures are necessary to gauge the TCE Program’s success in meeting its goals and
       objectives, they stated that they have an existing measure, Volume of Taxpayers Served,
       which is representative of the Program’s success. However, the IRS does not have
       performance measures specific to the TCE Program. For example, it does not measure
       and report whether the Program is meeting the goal of serving the elderly population.

                                                                                            Page 16
                  Oversight and Administration of the Tax Counseling for the
                             Elderly Program Need Improvement



                                                                                 Appendix I


        Detailed Objective, Scope, and Methodology

Our objective was to determine whether the TCE Program is effectively administered and is in
compliance with legal requirements. To accomplish this objective, we:
I.     Determined whether the IRS established adequate procedures and controls to ensure that
       1) grantees meet TCE Program requirements and 2) the IRS was meeting the Program’s
       objective and goals.
       A. Determined the method used to solicit applications for the Program.
       B. Identified the application process and determined how the grantees were selected to
          participate in the Program by reviewing internal guidelines and Application Package
          and Guidelines for Managing a TCE Program (Publication 1101) and by:
          1. Reviewing the 58 Panel Review Application Packages for the Fiscal Year 2006
             Program. We reviewed and tested Fiscal Year 2006 because this was the most
             recent year for which all closing actions should have been taken on grantee files.
          2. Comparing the performance (number of returns prepared, number of taxpayers
             assisted excluding returns prepared, etc.) for returning grantees to determine
             whether they should have been selected based on prior performance.
          3. Reviewing the documentation of the Notification of the Award Decisions to
             determine whether all grantees were provided sufficient notification.
II.    Interviewed the United States Department of Health and Human Services employees
       responsible for the TCE Program grants and determined the procedures used to reimburse
       the Program grantees as well as what controls were in place to safeguard funds and
       ensure that funds were expended according to the law.
III.   Determined whether the IRS established adequate financial controls to ensure that all
       TCE Program funds were safeguarded and expended according to the law.
       A. Determined whether the IRS had procedures to review financial information
          submitted by Program grantees.
       B. Determined whether the IRS effectively validated the financial information reported
          by Program grantees during the site visits by reviewing documentation of site visits
          and comparing the onsite financial information to that submitted to the Program
          office to determine the accuracy of reported information.

                                                                                        Page 17
                      Oversight and Administration of the Tax Counseling for the
                                 Elderly Program Need Improvement



        C. Determined whether the IRS had adequate procedures for collecting unexpended
           funds and transferring these funds to other taxpayer services before fiscal yearend.
        D. Ascertained whether the IRS was accurately recording Program grant payments.
        E. Reviewed the status of corrective actions taken by the IRS in response to the
           recommendations related to financial management of Program grantees.
IV.     Determined whether the TCE Program grantees were properly managing grant funds.
        A. Reviewed applicable legislation, Office of Management and Budget policies, and IRS
           procedures to determine all requirements.
        B. Determined whether any Fiscal Year 2006 Program grantees had unexpended grant
           funds at the end of the grant period and whether these funds were returned to the IRS
           by reviewing reports and comparing amounts of funds received to funds expended
           and/or returned.
V.      Determined whether the SPEC function was ensuring that the TCE Program grantees
        were directing services to the appropriate population and providing appropriate coverage
        to elderly taxpayers.
        A. Obtained data from IRS computer systems and United States census data to determine
           the volume of tax returns filed electronically and by paper for Tax Processing
           Years 2006 and 2007. We also determined geographic dispersion. For each fiscal
           year, we validated a judgmental sample of 30 records from the data obtained from
           IRS computer systems by researching the Integrated Data Retrieval System1 and
           matching the information.
        B. Analyzed the data and determined whether the Program grantees and sites were
           located where the elderly populations were located.




1
  This is the IRS computer system capable of retrieving or updating stored information. It works in conjunction with
a taxpayer’s account records.
                                                                                                          Page 18
                 Oversight and Administration of the Tax Counseling for the
                            Elderly Program Need Improvement



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Jackie E. Forbus, Lead Auditor
Lynn Faulkner, Senior Auditor
Tracy Harper, Senior Auditor
Jean Bell, Auditor
Joe Butler, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist
Jeff Williams, Information Technology Specialist




                                                                                   Page 19
                  Oversight and Administration of the Tax Counseling for the
                             Elderly Program Need Improvement



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 20
                   Oversight and Administration of the Tax Counseling for the
                              Elderly Program Need Improvement



                                                                                 Appendix IV

                                  Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; $3,914,625 (see page 4).

Methodology Used to Measure the Reported Benefit:
We examined documentation obtained from the IRS SPEC function and from the United
States Department of Health and Human Services to determine amounts received by the
58 Fiscal Year 2006 TCE Program grantees. These grantees received $3,914,625 in Fiscal Year
2006 Program awards as of November 2007. Because of the lack of internal controls,
stakeholders cannot rely on the information the IRS is reporting about the Program’s operations.




                                                                                          Page 21
       Oversight and Administration of the Tax Counseling for the
                  Elderly Program Need Improvement



                                                        Appendix V

Tax Counseling for the Elderly Quarterly/Final Report
                    (Form 8654)




                                                              Page 22
            Oversight and Administration of the Tax Counseling for the
                       Elderly Program Need Improvement




Source: 2006 Application Package and Guidelines for Managing a TCE Program (Publication 1101).


                                                                                          Page 23
                    Oversight and Administration of the Tax Counseling for the
                               Elderly Program Need Improvement



                                                                                Appendix VI

              Geographic Analysis of Fiscal Year 2006
          Tax Counseling for the Elderly Program Grantees

Ranking
   by                                                                               Number      Total
Number     Ranking by                                                                 of      Number
 of TCE    the State’s                       Total         State's                   Non-      of TCE
Program      Elderly                      Population by    Elderly     Number of     AARP     Program
  Sites    Population           State        State        Population   AARP Sites    Sites      Sites
   1           3         NEW YORK            19,306,183    3,415,729      514        130        644
   2           1         CALIFORNIA          36,457,549    5,373,476      577         25        602
   3           5         PENNSYLVANIA        12,440,621    2,487,309      402         21        423
   4           4         TEXAS               23,507,783    3,244,467      361         7         368
   5           16        MISSOURI             5,842,713    1,052,540      208        136        344
   6           7         OHIO                11,478,006    2,060,785      331         6         337
   7           2         FLORIDA             18,089,889    3,968,253      333                   333
   8           6         ILLINOIS            12,831,970    2,075,063      297         7         304
   9           14        MASSACHUSETTS        6,437,193    1,161,333      298                   298
  10           9         NEW JERSEY           8,724,560    1,539,180      241         21        262
  11           21        MINNESOTA            5,167,101      851,910      258                   258
  12           17        WASHINGTON           6,395,798    1,038,082      238                   238
  13           18        INDIANA              6,313,520    1,065,690      223         14        237
  14           8         MICHIGAN            10,095,643    1,726,673      194         34        228
  15           19        WISCONSIN            5,556,506      974,028      199         2         201
  16           20        MARYLAND             5,615,727      906,755      191         1         192
  17           28        OREGON               3,700,758      653,847      153                   153
  18           10        NORTH CAROLINA       8,856,505    1,493,958      140         11        151
  19           11        GEORGIA              9,363,941    1,302,053      144                   144
  20           33        KANSAS               2,764,075      476,582      114         1         115
  21           22        ALABAMA              4,599,030      839,067      41          66        107
  22           13        ARIZONA              6,166,318    1,064,491      98                    98
  23           15        TENNESSEE            6,038,803    1,067,781      97                    97
  24           25        KENTUCKY             4,206,074      740,978      88          8         96
  25           27        CONNECTICUT          3,504,809      639,905      91                    91
  26           39        MAINE                1,321,574      262,269      87                    87
  27           30        IOWA                 2,982,085      574,144      80                    80
  28           37        NEBRASKA             1,768,331      308,200      72          7         79
  29           47        VERMONT                623,908      116,980      75                    75
  30           12        VIRGINIA             7,642,884    1,238,524      70                    70
  31           24        LOUISIANA            4,287,768      722,289      69                    69
  32           41        IDAHO                1,466,465      236,145      69                    69


                                                                                           Page 24
                      Oversight and Administration of the Tax Counseling for the
                                 Elderly Program Need Improvement



 Ranking
    by                                                                                       Number     Total
 Number      Ranking by                                                                        of     Number
  of TCE     the State’s                             Total          State's                   Non-     of TCE
 Program       Elderly                            Population by     Elderly     Number of     AARP    Program
   Sites     Population           State              State         Population   AARP Sites    Sites     Sites
    33           23        SOUTH CAROLINA             4,321,249       778,695      68                   68
    34           29        OKLAHOMA                   3,579,212       642,346      66                   66
    35           45        DELAWARE                     853,476       158,690      62                   62
    36           42        NEW HAMPSHIRE              1,314,895       230,035      61                   61
    37           26        COLORADO                   4,753,377       682,865      55          5        60
    38           35        WEST VIRGINIA              1,818,470       377,447      60                   60
    39           43        RHODE ISLAND               1,067,610       199,678      52                   52
    40           34        NEVADA                     2,495,529       396,998      48                   48
    41           40        HAWAII                     1,285,498       243,893      47                   47
    42           36        NEW MEXICO                 1,954,599       331,269      46                   46
    43           31        ARKANSAS                   2,810,872       529,952      44                   44
    44           44        MONTANA                      944,632       180,365      44                   44
    45           38        UTAH                       2,550,063       309,236      43                   43
    46           32        MISSISSIPPI                2,910,540       494,756      41                   41
                           DISTRICT OF
    47           51        COLUMBIA                     581,530        97,668      25                   25
    48           50        ALASKA                       670,053        71,812      23                   23
    49           46        SOUTH DAKOTA                 781,919       145,378      22                   22
    50           49        WYOMING                      515,004        88,965      17                   17
    51           48        NORTH DAKOTA                 635,867       121,546      13                   13
Source: Our analysis of United States census data and IRS TCE Program data.




                                                                                                   Page 25
                         Oversight and Administration of the Tax Counseling for the
                                    Elderly Program Need Improvement



                                                                                                Appendix VII

      Fiscal Year 2006 Tax Counseling for the Elderly Program
         Grant Amounts and Tax Return Preparation Activity

                                                    Percentage of Tax Returns
                    Number of Tax Returns              Prepared for Elderly
                                                                                                              1
                        Reported Per                      Taxpayers Per                Return on Investment Per
                                     IRS
     Grant                        Computer            Forms       IRS Computer          Forms        IRS Computer
    Amount         Forms 8654      System              8654          System              8654           System
        $1,348               430             14          47%               57%            $3               $96
        $1,700             1,681          1,101          61%               44%            $1                $2
        $1,786               266            288          20%               19%            $7                $6
        $1,800               480            358          20%               13%            $4                $5
        $1,821               550            412         100%               73%            $3                $4
        $2,000               357            309         100%               91%            $6                $6
        $2,510               415             95         100%               69%            $6               $26
        $2,569               100             75          42%               51%           $26               $34
        $2,600               646              1          40%                0%            $4            $2,600
        $2,618               321            184         100%               93%            $8               $14
        $2,700               797            561          75%               68%            $3                $5
        $2,900             2,035            296          50%               17%            $1               $10
        $2,951                34             11          62%               64%           $87              $268
        $3,000               213             87         100%               79%           $14               $34
        $3,000               338            146         100%               90%            $9               $21
        $3,000             1,267            501          76%               71%            $2                $6
        $3,150               900            586          95%               77%            $4                $5
        $3,200               527              0         100%                0%            $6           $3,2002
        $3,200               747             28          63%               43%            $4              $114
        $3,500                48             13         100%               38%           $73              $269
        $3,500             1,369          1,289          32%               33%            $3                $3
        $3,583             1,177            501          14%               11%            $3                $7
        $3,800               181            124           7%               44%           $21               $31
        $4,900               518            433          15%               48%            $9               $11
        $4,922               701            690          70%               38%            $7                $7
        $5,000               174            171          41%               37%           $29               $29
        $5,000               968             68          10%               37%            $5               $74
        $5,400             1,032            496          47%               17%            $5               $11


1
    Averages have been rounded to the nearest dollar.
2
    We used total cost for one return as $3,200 because IRS computers showed no returns were filed by this grantee.
                                                                                                            Page 26
                       Oversight and Administration of the Tax Counseling for the
                                  Elderly Program Need Improvement




                                                 Percentage of Tax Returns
                   Number of Tax Returns            Prepared for Elderly
                                                                                                       1
                       Reported Per                    Taxpayers Per              Return on Investment Per
                                    IRS
    Grant                        Computer         Forms       IRS Computer        Forms        IRS Computer
   Amount         Forms 8654      System           8654          System            8654           System
       $5,500              979           745          36%             33%            $6              $7
       $6,239              429           174         100%             89%           $15             $36
       $6,340              669           616          69%             71%            $9             $10
       $6,400              286           206          82%             40%           $22             $31
       $6,500            1,710           804         100%             66%            $4              $8
       $7,000              654           595         100%             89%           $11             $12
       $7,000              666           511          42%             59%           $11             $14
       $7,000            1,199           487          70%             72%            $6             $14
       $7,200            1,636         1,394          15%             17%            $4              $5
       $7,500               22            16          27%             31%          $341            $469
       $7,500              658           358          61%             36%           $11             $21
       $7,500            1,403           803          37%             32%            $5              $9
       $7,900              217           118         100%             64%           $36             $67
       $8,000              448           426          98%             88%           $18             $19
       $9,500            1,023           999          19%             17%            $9             $10
       $9,800            3,734         2,640          40%             46%            $3              $4
      $10,800            1,552            11          50%             27%            $7            $982
      $11,000            1,011           812          82%             77%           $11             $14
      $13,000              723           262          75%             66%           $18             $50
      $13,000            3,512         1,243          53%             67%            $4             $10
      $15,865              745           616          46%             46%           $21             $26
      $16,500              864           390          17%             20%           $19             $42
      $22,000            1,229         1,088          17%             31%           $18             $20
      $26,000            2,502         2,221         100%             85%           $10             $12
      $29,500            1,898         1,642          44%             43%           $16             $18
      $30,000            1,794         1,586          33%             35%           $17             $19
      $33,140            1,195           875          57%             57%           $28             $38
      $40,000            6,380         5,499          66%             16%            $6              $7
      $46,000            2,800         1,773          80%             71%           $16             $26
   $3,435,658        1,199,567     1,067,872         100%             62%            $3              $3
Source: Our analysis of TCE Program data and data retrieved from IRS management information systems containing
Tax Year 2006 filing information.




                                                                                                     Page 27
     Oversight and Administration of the Tax Counseling for the
                Elderly Program Need Improvement



                                                    Appendix VIII

Management’s Response to the Draft Report




                                                            Page 28
Oversight and Administration of the Tax Counseling for the
           Elderly Program Need Improvement




                                                       Page 29
Oversight and Administration of the Tax Counseling for the
           Elderly Program Need Improvement




                                                       Page 30
Oversight and Administration of the Tax Counseling for the
           Elderly Program Need Improvement




                                                       Page 31
Oversight and Administration of the Tax Counseling for the
           Elderly Program Need Improvement




                                                       Page 32
Oversight and Administration of the Tax Counseling for the
           Elderly Program Need Improvement




                                                       Page 33
